October 22, 2020
Via ECF
Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: BP p.l.c., et al., v. Mayor and City Council of Baltimore, No. 19-1189
Consent to Amicus Curiae Briefs
Dear Mr. Harris,
I am counsel of record for Respondent, Mayor & City Council of Baltimore (“City”), in
the above-referenced matter. I write to advise the court that the City consents to the submission of
any and all amicus curiae briefs in this matter, in support of Respondent or Petitioners, or in support
of neither.
Respectfully submitted,
/s/ Victor M. Sher
Victor M. Sher
Sher Edling LLP
Counsel of Record for Respondent
Mayor and City Council of Baltimore

cc: All Counsel of Record

100 Montgomery Street, Suite1410 − San Francisco, CA 94104

Office: (628) 231-2500 − sheredling.com

